      DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Office of Inspector General


                                                                            Washington, D.C. 20201




November 12, 2010

TO:            Thomas R. Frieden, M.D., M.P.H.
               Director
               Centers for Disease Control and Prevention


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of the Centers for Disease Control and Prevention’s Compliance With
               Appropriations Laws and Acquisition Regulations—Contractor E
               (A-04-09-06108)


The attached final report provides the results of our review of the Centers for Disease Control
and Prevention’s (CDC) compliance with appropriations laws and acquisition regulations. This
audit, which we initiated as a result of a congressional request, is one in a series of audits of
CDC’s contracting practices. It focuses on an information technology service contract awarded
to a company referred to as “Contractor E.”

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector General
(OIG) post its publicly available reports on the OIG Web site. Accordingly, this report will be posted
at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-04-09-06108 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  REVIEW OF THE CENTERS FOR
    DISEASE CONTROL AND
PREVENTION’S COMPLIANCE WITH
    APPROPRIATIONS LAWS
       AND ACQUISITION
 REGULATIONS—CONTRACTOR E




                      Daniel R. Levinson
                       Inspector General

                       November 2010
                       A-04-09-06108
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

During fiscal years 2000 through 2009, the Centers for Disease Control and Prevention (CDC)
awarded more than $1.3 billion in information technology (IT) service contracts to help
accomplish its mission. Like other Federal agencies, CDC is required to follow appropriations
laws and the Federal Acquisition Regulation when acquiring services with appropriated funds.

This audit, which we initiated as a result of a congressional request, is one in a series of audits of
CDC’s contracting practices. It focuses on a 2003 IT service contract that CDC awarded to a
company referred to in this report as “Contractor E.” Under the contract, CDC awarded 30 task
orders totaling $100 million to Contractor E from 2003 to 2010. Our review covered six of these
task orders. The six task orders generally called for severable services, which are services that
are recurring and continuing in nature and that are not intended to provide a specific end product,
such as a report. The six task orders were valued at $48 million.

OBJECTIVE

Our objective was to determine whether CDC’s IT service contract and selected task orders
awarded to Contractor E complied with appropriations laws and acquisition regulations with
respect to competition, inherently governmental functions, personal services, contract funding,
and pricing.

SUMMARY OF FINDINGS

CDC’s IT service contract and six sampled task orders awarded to Contractor E complied with
acquisition regulations with respect to competition, inherently governmental functions, and
personal services. However, the task orders did not fully comply with appropriations laws and
acquisition regulations with respect to contract funding and pricing. Specifically, for two of the
six task orders, CDC used annual appropriations to pay for expenses incurred after the
appropriations’ 1-year period of availability had expired. Additionally, CDC did not sufficiently
document price or cost analyses under all six task orders.

These deficiencies occurred because CDC’s policies and procedures did not address funding
requirements for severable service contracts. Furthermore, CDC’s policies and procedures were
inadequate to ensure the establishment of fair and reasonable prices. As a result, CDC violated
the bona fide needs statute by expending $230,520 of annual appropriations beyond their period
of availability and did not ensure that the pricing of task orders and modifications totaling
$21.5 million was fair and reasonable.




                                                  i
RECOMMENDATIONS

We recommend that CDC:

   •   determine whether the $230,520 expended outside the 1-year period of availability
       violated the Antideficiency Act and, if so, report the violation as required;

   •   develop and implement policies and procedures to address compliance with
       appropriations statutes and acquisition regulations regarding obligating and expending
       funds; and

   •   implement and monitor the effectiveness of policies and procedures for documenting
       determinations of fair and reasonable pricing.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In its comments on our draft report, CDC described its corrective actions to address each of our
recommendations. The complete text of CDC’s comments is included as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Contracting Responsibilities .............................................................................. 1
              Federal Laws and Regulations ........................................................................... 1
              Contract Awarded to Contractor E .................................................................... 3

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 3
               Objective ............................................................................................................ 3
               Scope .................................................................................................................. 3
               Methodology ...................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          TASK ORDER FUNDING............................................................................................ 5
               Federal Laws and Regulations ........................................................................... 5
               Annual Appropriations Used Beyond Period of Availability ............................ 5
               Inadequate Policies and Procedures on Funding Limitations ............................ 6
               Violations of the Bona Fide Needs Statute ........................................................ 6

          TASK ORDER PRICING.............................................................................................. 6
               Federal Regulations ........................................................................................... 6
               Inadequate Documentation of Price or Cost Analyses ...................................... 7
               Inadequate Policies and Procedures on Documentation Requirements ............. 7
               No Assurance of Fair and Reasonable Pricing .................................................. 7

          RECOMMENDATIONS ............................................................................................... 8

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS ............ 8

APPENDIX

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

The mission of the Centers for Disease Control and Prevention (CDC) is to promote health and
quality of life by preventing and controlling disease, injury, and disability. To help accomplish
its mission, CDC contracts for certain information technology (IT) services, such as automated
information systems design, computer-aided design, and programming services. During fiscal
years (FY) 2000 through 2009, CDC funding for IT service contracts increased from
$110 million to $157 million per year, for a total of more than $1.3 billion during the 10-year
period.

This audit, which we initiated as a result of a congressional request, is one in a series of audits of
CDC’s contracting practices.

Contracting Responsibilities

CDC’s Procurement and Grants Office (PGO) is responsible for the award, administration, and
closeout of all CDC contracts. Within PGO, contracting officers are responsible for ensuring
effective contracting; ensuring compliance with contract terms; ensuring that contractors receive
impartial, fair, and equitable treatment; and determining the adequacy of contractor performance.

CDC’s centers, institutes, and offices (program offices) are the primary initiators of service
contracts. Contracting officers delegate certain administrative duties to program office
employees referred to as “contracting officers’ technical representatives” (project officers) and
“technical monitors.” As the contracting officers’ authorized representatives for administering
contracts and task orders, respectively, project officers and technical monitors are responsible for
ensuring proper Government oversight of contractors’ performance. Project officers and
technical monitors are not empowered to make any contractual commitments or to authorize any
contractual changes on the Government’s behalf.

CDC’s Financial Management Office is responsible for processing payments to contractors and
for maintaining records of invoices, payments, and supporting documents.

Federal Laws and Regulations

Federal agencies are required to follow appropriations laws and the Federal Acquisition
Regulation (FAR) when acquiring supplies and services with appropriated funds. Selected
requirements are summarized below.

Competition

FAR 6.101(a) requires that contracting officers promote and provide for full and open
competition in soliciting offers and awarding Government contracts. FAR 16.505(b)(1)(i)
requires, with certain limited exceptions, that contracting officers provide each awardee under a




                                                  1
multiple-award, indefinite-delivery, indefinite-quantity contract a fair opportunity to be
considered for each order exceeding $3,000. 1

Inherently Governmental Functions

FAR 7.503(a) states that “[c]ontracts shall not be used for the performance of inherently
governmental functions.” Inherently governmental functions include determining agency policy,
such as the content and application of regulations; determining budget policy, guidance, and
strategy; and directing and controlling Federal employees.

Personal Services

FAR 37.104 prohibits agencies from awarding personal service contracts unless specifically
authorized by statute. The FAR characterizes a personal service contract as one in which an
employer-employee relationship is created between the Government and contractor personnel.
This relationship may be created by the contract terms or by subjecting contractor personnel to
relatively continuous supervision and control by agency employees during contract performance.

Contract Funding

Pursuant to the bona fide needs statute (31 U.S.C. § 1502), agencies generally are required to
fund severable service contracts with funds that are current and available for the year in which
performance takes place. 2 The bona fide needs statute requires that “[t]he balance of an
appropriation or fund limited for obligation to a definite period is available only for payment of
expenses properly incurred during the period of availability or to complete contracts properly
made within that period ….” However, pursuant to 41 U.S.C. § 253l, an agency may enter into a
contract for severable services for a period that begins in one FY and ends in the next FY if the
contract period does not exceed 1 year. Such contracts may be funded entirely with funds
available in the earlier year.

The FAR reflects the bona fide needs statute, as well as the statutory exception. FAR 32.703-3
states that “[a] contract that is funded by annual appropriations may not cross fiscal years, except
in accordance with statutory authorization …” or when the contract is for nonseverable services.

Fair and Reasonable Pricing

FAR 4.801 states that documentation in the contract files must be, among other things, sufficient
to support actions taken and to provide information for reviews and investigations.

FAR 15.402 states that “[c]ontracting officers must—(a) [p]urchase supplies and services from
responsible sources at fair and reasonable prices.” FAR 15.404-1 states that contracting officers
are responsible for evaluating the reasonableness of the offered prices and may use price analysis

1
    The fair opportunity threshold was changed from $2,500 to $3,000 in 2006 (71 Fed. Reg. 57363 (Sept. 28, 2006)).
2
 Severable services are services that are recurring and continuing in nature and that are not intended to provide a
specific end product, such as a report.


                                                          2
or cost analysis to ensure that the final price is fair and reasonable, depending on the complexity
and circumstances of the acquisition.

Contract Awarded to Contractor E

In 2003, CDC awarded task order contracts to two companies for the ongoing acquisition of “a
broad array of data, information, information technology, and information system support on an
‘as-needed’ basis.” Under the two contracts, CDC issued 126 task orders totaling almost
$670 million.

CDC awarded 30 task orders totaling $100 million to 1 of the 2 contractors (Contractor E) from
2003 to 2010. 3 Contractor E is a global security company, employing about 140,000 people,
which is principally engaged in the research, design, development, manufacture, integration, and
sustainment of advanced technology systems, products, and services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CDC’s IT service contract and selected task orders
awarded to Contractor E complied with appropriations laws and acquisition regulations with
respect to competition, inherently governmental functions, personal services, contract funding,
and pricing.

Scope

Our audit covered CDC’s IT service contract with Contractor E (contract 200-2004-03526) and
six task orders awarded under the contract between November 25, 2003, and August 27, 2008.
The six task orders were valued at $48 million.

We did not review CDC’s overall internal control structure. We limited our internal control
review to obtaining an understanding of CDC’s policies and procedures for awarding and
administering contracts.

We performed our fieldwork at CDC in Atlanta, Georgia, from May 12, 2009, through March 31,
2010.

Methodology

To accomplish our objective, we:

       •   reviewed relevant Federal laws, regulations, and guidance;

       •   gained an understanding of CDC’s policies and procedures related to contract award and
           administration;
3
    The second contractor is the subject of another report (A-04-09-01066).


                                                           3
    •   gained an understanding of the contract administration responsibilities of PGO and
        program officials;

    •   conducted a risk assessment of the 30 task orders awarded to Contractor E and
        judgmentally selected 4 6 task orders (task orders 2, 5, 9, 16, 20, and 22) for detailed
        review;

    •   reviewed documentation maintained by PGO, program offices, and the Financial
        Management Office related to the contract and the 6 task orders;

    •   reviewed the competitive procedures used to award the contract and the 6 task orders;

    •   interviewed CDC officials to gain an understanding of the types of services provided
        under the 6 task orders and the extent to which:

             o contractor personnel performed inherently governmental functions,

             o CDC employees provided direction and supervision to contractor personnel, and

             o other elements of personal services existed in contract administration;

    •   assessed the procedures used to fund and price the 6 task orders and related
        modifications;

    •   reviewed the terms and conditions of, and subsequent modifications to, the 6 task orders
        to determine whether annual appropriations were used beyond their period of availability;
        and

    •   reviewed CDC’s financial records to quantify the payments made using appropriations
        beyond their period of availability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

CDC’s IT service contract and six sampled task orders awarded to Contractor E complied with
acquisition regulations with respect to competition, inherently governmental functions, and
personal services. However, the task orders did not fully comply with appropriations laws and

4
 Our selection factors included whether the task orders were competed, whether Contractor E was the only bidder,
and whether the task orders potentially included inherently governmental activities. We also considered the dollar
value of the task orders.


                                                         4
acquisition regulations with respect to contract funding and pricing. Specifically, for two of the
six task orders, CDC used annual appropriations to pay for expenses incurred after the
appropriations’ 1-year period of availability had expired. Additionally, CDC did not sufficiently
document price or cost analyses under all six task orders.

These deficiencies occurred because CDC’s policies and procedures did not address funding
requirements for severable service contracts. Furthermore, CDC’s policies and procedures were
inadequate to ensure the establishment of fair and reasonable prices. As a result, CDC violated
the bona fide needs statute by expending $230,520 of annual appropriations beyond their period
of availability and did not ensure that the pricing of task orders and modifications totaling
$21.5 million was fair and reasonable.

TASK ORDER FUNDING

Federal Laws and Regulations

Pursuant to the bona fide needs statute (31 U.S.C. § 1502), agencies generally are required to
fund severable service contracts with funds that are current and available for the year in which
performance takes place. The bona fide needs statute requires that “[t]he balance of an
appropriation or fund limited for obligation to a definite period is available only for payment of
expenses properly incurred during the period of availability or to complete contracts properly
made within that period ….” However, pursuant to 41 U.S.C. § 253l, an agency may enter into a
contract for severable services for a period that begins in one FY and ends in the next FY if the
contract period does not exceed 1 year. Such contracts may be funded entirely with funds
available in the earlier year.

The FAR reflects the bona fide needs statute, as well as the statutory exception. FAR 32.703-3
states that “[a] contract that is funded by annual appropriations may not cross fiscal years, except
in accordance with statutory authorization …” or when the contract is for nonseverable services.

The Antideficiency Act (31 U.S.C. § 1341) provides that officers or employees of the
Government may not make or authorize an obligation in excess of the available funds or in
advance of appropriations. This Act requires agencies to report violations to the President and to
Congress, with a copy to the Comptroller General (31 U.S.C. § 1351).

Annual Appropriations Used Beyond Period of Availability

For two task orders for severable services, CDC used annual appropriations to pay for expenses
incurred after the appropriations’ 1-year period of availability had expired. 5

    •    In August 2005, CDC awarded task order 16 in the amount of $767,696 to provide data
         services for the National Center for Health Statistics. Under the task order, services were

5
  The terms of the basic contract defined two types of task orders: “product” task orders and “term” task orders. Per
the contract, term task orders are for ongoing work with no identifiable end product (i.e., severable services). CDC
identified all six sampled task orders as “term” task orders. Our review of the task order statements of work also
suggests that the services were severable.


                                                         5
           to be provided during a 1-year base period (August 15, 2005, through July 31, 2006). On
           August 15, 2005, CDC fully funded this task order by using annual appropriations. CDC
           incurred expenses totaling $149,866 from August through November 2006. However, no
           available obligations remained to cover these costs because the 1-year period of
           availability to use FY 2005 obligations had expired.

      •    In July 2004, CDC awarded task order 9 in the amount of $23,690,249 6 for information
           systems support for the National Center for Environmental Health and the Agency for
           Toxic Substances and Disease Registry. Under the task order, services were to be
           provided during a 1-year base period (July 1, 2004, through June 30, 2005) and two
           1-year option periods ending January 31, 2008. CDC incrementally funded each period.
           CDC incurred expenses totaling $247,308 from November 2008 to May 2009. However,
           as of October 19, 2008, only $166,654 of FY 2007 obligations remained. CDC
           inappropriately funded the balance of $80,654 using FYs 2005 and 2006 appropriations.

Inadequate Policies and Procedures on Funding Limitations

CDC inappropriately expended annual appropriations beyond their 1-year period of availability
because it had not developed and implemented adequate policies and procedures to ensure
compliance with appropriations statutes and acquisition regulations on obligating and expending
funds. Specifically, CDC’s policies and procedures did not address funding requirements for
severable service contracts. CDC’s policies and procedures also did not address the funding of
contract extensions that cause periods of performance to exceed 1 year and did not prohibit the
use of prior-year appropriations for costs incurred in a subsequent year.

Violations of the Bona Fide Needs Statute

By extending the periods of performance for two task orders beyond 1 year, CDC expended
$230,520 of annual appropriations outside their 1-year period of availability and violated the
bona fide needs statute. Such expenditures will violate the Antideficiency Act if sufficient funds
from applicable appropriations are not available to cover the expenditures.

CDC could resolve the violations of the bona fide needs statute by adjusting its accounts
(assuming sufficient funds are available) and recording the expenditures against the correct
FY appropriations. This would require CDC to research the proper use of funds totaling
$230,520 and to determine the correct period of availability for those funds.

TASK ORDER PRICING

Federal Regulations

Contracting officers must purchase supplies and services from responsible sources at fair and
reasonable prices (FAR 15.402). Depending on the complexity and circumstances of the
acquisition, contracting officers may use price analysis or cost analysis to ensure that the final

6
    The $23,690,249 included $21,331,183 for the original award and $2,359,066 for modifications.


                                                          6
price is fair and reasonable (FAR 15.404-1). Documentation in the contract files must be
sufficient to support the actions taken (FAR 4.801).

Inadequate Documentation of Price or Cost Analyses

CDC did not adequately document required price or cost analyses for 3 sampled task orders 7 and
12 modifications 8 applicable to the 3 remaining sampled task orders.

       •   Although three task order files contained “Determination of Price/Cost Reasonableness”
           memos and email correspondence between contracting officers and project officers or
           technical monitors, this documentation did not sufficiently support the conclusions
           reached about price or cost reasonableness. The “Determination of Price/Cost
           Reasonableness” memos stated that prices were determined to be fair and reasonable
           through comparisons with prices for similar work under other task orders. However,
           these memos did not indicate which other task orders were reviewed.

       •   Two task order files contained email correspondence documenting that project officers or
           technical monitors had agreed with the reasonableness of the proposed pricing. However,
           the correspondence did not indicate how the project officers or technical monitors had
           reached their conclusions.

       •   One task order file contained no documentation of price or cost analysis.

Inadequate Policies and Procedures on Documentation Requirements

CDC’s policies and procedures were inadequate to ensure sufficient documentation of price or
cost analyses. Although CDC’s policies and procedures required contracting officers to adhere
to the FAR’s provisions on contract pricing, the policies did not address the FAR requirement
that sufficient documentation be included in the contract files to support the actions taken to
ensure fair and reasonable pricing.

Contracting officers told us that CDC was in the process of developing new documentation
procedures to support pricing decisions.

No Assurance of Fair and Reasonable Pricing

Without adequate documentation of price or cost analyses, CDC could not demonstrate that
prices were fair and reasonable. The lack of adequate documentation prevented independent
verification that proposed prices totaling $21.5 million for 3 task order awards and 12
modifications applicable to 3 other task orders were fair and reasonable.



7
    Task orders 2, 16, and 22.
8
 Task order 5, modifications 2, 4, 8, 15, and 18; task order 9, modifications 2, 5, 6, 10, and 20; and task order 20,
modifications 1 and 13.


                                                           7
RECOMMENDATIONS

We recommend that CDC:

   •   determine whether the $230,520 expended outside the 1-year period of availability violated
       the Antideficiency Act and, if so, report the violation as required;

   •   develop and implement policies and procedures to address compliance with appropriations
       statutes and acquisition regulations regarding obligating and expending funds; and

   •   implement and monitor the effectiveness of policies and procedures for documenting
       determinations of fair and reasonable pricing.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In its comments on our draft report, CDC described its corrective actions to address each of our
recommendations. CDC stated that it had adjusted its accounts to avoid a potential
Antideficiency Act violation and that it had issued policy and/or conducted training on
appropriations law and severability, contract funding, and contract development and issuance.
The complete text of CDC’s comments is included as the Appendix.




                                                8
APPENDIX
                                                                                                              Page 1 of2


APPENDIX: CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS 




         DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Public Health Service



                                                                                     Centers for Disease Control
                                                                                       and Prevention (CDC)
                                                                                     Atlanta GA 30333




      DATE:       September 14, 2010

      TO:         Daniel R. Levinson
                  Inspector General
                  Department of Health and Human Services
      FROM:
                  Director, Centers for Disease Control and Prevention
                  Administrator, Agency for Toxic Substances and Disease Registry


      SUBJECT: OIG Draft Report -- "Review o/the Centers/or Disease Conrrol and Prevention's
      Compliance with Appropriations Laws and Acquisition Regulations-Contractor E" (A-04-09­
      06108)

      In the Draft Report Response (A-04-09-06I08), the Office of the Inspector General (OIG) made
      several recommendations to the Centers for Disease Control and Prevention (CDC). The CDC
      responses are below.

      OlG Recommendation (I): Determine whether the $ 230,520 expended outside of the one-year
      period of availability violated the Anti-Deficiency Act, and if so, report the violation as required.

      CDC Response (1): CDC concluded that the Contracting Officer did allow the funds to be
      expended outside of the one-year period of availability. Corrective actions have been taken in
      policy and training to ensure correct application of the bona fide need rule. CDC's Financial
      Management Office (FMO) has adjusted its accounts to properly record funds expended outside
      the one-year period of availability, thus eliminating a potential Anti -Deficiency Act violation.

      OIG Recommcndation (2): Develop and implement policies and procedures to address
      compliance with appropriate statutes and acquisition regulations regarding obligating and
      expending funds.

      CDC Response (2): CDC's Procurement and Grants Office (PGO), in coordination with FMO,
      has issued corrective policy and conducted a series of training sessions on appropriations law and
      severability. course has been attended by the preponderance ofPGO Contracting Officers, FMO
      Budget Analysts, and program personnel who work on contracts.

      OIG Recommcndation (3): Implement and monitor the effectiveness of policies and
      procedures for documenting determinations of fair and reasonable pricing.
                                                                                                Page 2 of2




                                                                          Daniel R. Levinson
                                                                          September 14, 2010
                                                                                       Page 2


CDC Response (3): CDC concurs with the finding and recommendation as stated in this section
of the draft report. CDC has implemented the following quality assurance actions for improved
review and control of contract funding:

• 	 Issued updated policy and guidance on contract funding.
• 	 Developed and provided training to CDC personnel involved in the development and
    issuance of contracts.
• 	 Updated the Contract Review and Approval Threshold PGO Standard Operating Procedure,
    03-01 (Revised 4/02/ 10) and the Preparing the Negotiation Memorandum , PGO SOP 2010­
    05.

We ask that your staff direct any questions or comments to Mr. Michael Tropauer, CDC's OIG 

Liaison, by telephone at (404) 639-7009, or bye-mail at iggao@cdc.gov. 

Thank you for your review of this important matter. 




                                              ~~  Thomas R. Frieden, M.D., M.P.H.
